Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


THE VIETNAM ADMINISTRATION FOR
  HIV/AIDS CONTROL DID NOT
ALWAYS MANAGE THE PRESIDENT’S
EMERGENCY PLAN FOR AIDS RELIEF
FUNDS OR MEET PROGRAM GOALS IN
   ACCORDANCE WITH AWARD
         REQUIREMENTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        June 2013
                                                      A-06-11-00057
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services (HHS) Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year 2009, CDC “obligated” PEPFAR funds totaling $1.2
billion. CDC awarded these funds through cooperative agreements, which it uses in lieu of
grants when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The regulations that apply to Federal grants
also apply to cooperative agreements.

Through a 5-year cooperative agreement (grant number 5U2GPS000747), CDC awarded
PEPFAR funds totaling $15,000,000 and a carryover amount of $4,211,597 to the Vietnam
Administration for HIV/AIDS Control, the Ministry of Health (the Ministry), for the budget
period September 30, 2009, through September 29, 2010. The Ministry’s mission is to assist the
Government of Vietnam in building a sustainable response to its national HIV/AIDS epidemic
through the rapid expansion of innovative, culturally appropriate, high-quality HIV/AIDS
prevention and care programs. The Ministry entered into a cooperative agreement with CDC to
implement a coordinated national response to the HIV/AIDS epidemic. The goals of the
cooperative agreement were to strengthen the Ministry’s capability to:

    •   reduce HIV transmission through effective prevention;

    •   improve HIV/AIDS-infected individuals’ care, support, and treatment; and

    •   strengthen Vietnam’s HIV/AIDS infrastructure and its ability to control and prevent
        HIV/AIDS.




                                               i
OBJECTIVE

Our objective was to determine whether the Ministry managed PEPFAR funds and met program
goals in accordance with award requirements.

SUMMARY OF FINDINGS

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, the Ministry did not return $17,777
in interest income to CDC through the Payment Management System (PMS). In addition
$29,931 of the $434,311 in financial transactions that we reviewed was used to pay potentially
unallowable value-added taxes (VAT) on purchases.

Also, the Ministry did not:

   •   ensure that all of the provinces obtained the tax identification (tax ID) required to receive
       a VAT refund or

   •   record adjustments to the general ledger account in a timely manner.

Our program management review showed that all 30 of the accomplishments sampled from the
annual progress report related to the goals and objectives of the cooperative agreement.
However, 5 of the 30 accomplishments were not accurately supported by documentation.
Additionally, the Ministry did not submit its semiannual and annual progress reports to CDC on
time, in accordance with Federal regulations.

The Ministry’s policies and procedures did not ensure that it:

   •   provided guidelines for returning interest income to CDC through the PMS system,

   •   reconciled progress reports submitted to CDC with supporting documentation, or

   •   submitted its progress reports timely.

RECOMMENDATIONS

We recommend that the Ministry:

   •   return $17,777 in interest income to CDC;

   •   work with CDC to resolve whether the $29,931 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   ensure that all provinces receive a tax ID and apply for a VAT refund;

   •   record financial transactions timely; and



                                                   ii
   •   strengthen internal controls to ensure that:

       o progress reports are reconciled to supporting documentation and the data reported to
         CDC is accurate and

       o all progress reports are submitted timely.

MINISTRY COMMENTS

In written comments on our draft report, the Ministry concurred with our recommendations on
strengthening internal controls over progress reports and generally agreed with our
recommendation to return the $17,777 in interest income. The Ministry partially agreed with our
recommendation to work with CDC to resolve whether the $29,931 of VAT was an allowable
expenditure under the cooperative agreement; it neither agreed nor disagreed with our
recommendation to record financial transactions in a timely manner. Additionally, the Ministry
described corrective actions that it had taken or planned to take. See the body of the report for
more details of the Ministry’s comments and our responses.




                                                iii
                                                  TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              President’s Emergency Plan for AIDS Relief .................................................... 1
              Centers for Disease Control and Prevention ...................................................... 1
              Vietnam Administration for HIV/AIDS Control .............................................. 2
              Federal Requirements and Departmental Policies ............................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS.............................................................................. 4

          FINANCIAL MANAGEMENT .................................................................................... 4
               Program Interest Income Not Returned ............................................................. 4
               Expenditures for Value-Added Tax ................................................................... 4
               Timely Recording of Financial Transactions ..................................................... 5

          PROGRAM MANAGEMENT ...................................................................................... 5
              Progress Report Testing ..................................................................................... 5
              Progress Report Submission .............................................................................. 6

          INADEQUATE POLICIES AND PROCEDURES ...................................................... 6

          RECOMMENDATIONS ............................................................................................... 7

          MINISTRY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE………………………….......................................................................... 7
               Program Interest Income Not Returned ............................................................. 7
               Expenditures for Value-Added Tax ................................................................... 8
               Timely Recording of Financial Transactions ..................................................... 8

APPENDIX

          MINISTRY COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act),
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The Department of Health
and Human Services (HHS) receives PEPFAR funds from the Department of State through a
memorandum of agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195),
as amended, and the 2003 Act, as amended.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other public health
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

For fiscal year (FY) 2009, CDC obligated 1 PEPFAR funds totaling $1.2 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 2 In response to a Funding Opportunity Announcement (FOA), 3
CDC awarded the Vietnam Administration for HIV/AIDS Control, the Ministry of Health (the
Ministry), grant number 5U2GPS000747 through a cooperative agreement for the project period
September 30, 2007, through September 29, 2012.



1
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives 1.02, the highest level of policy
within HHS that governs grants.

2
    The regulations that apply to Federal grants also apply to cooperative agreements.
3
 FOA Number CDC-RFA-PS07-703 is entitled: Strengthening Coordination and Development of HIV/AIDS
Prevention and Care in the Socialist Republic of Vietnam under the U.S. President’s Emergency Plan for AIDS
Relief.



                                                            1
Vietnam Administration for HIV/AIDS Control

The Ministry’s mission is to assist the Government of Vietnam in building a sustainable response
to its national HIV/AIDS epidemic through the rapid expansion of innovative, culturally
appropriate, high-quality HIV/AIDS prevention and care programs. The goals of the cooperative
agreement were to strengthen the Ministry’s capability to:

    •   reduce HIV transmission through effective prevention;

    •   improve HIV/AIDS-infected individuals’ care, support, and treatment; and

    •   strengthen Vietnam’s HIV/AIDS infrastructure and its ability to control and prevent
        HIV/AIDS.

Federal Requirements and Departmental Policies

The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The grant
administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of
higher education, and commercial organizations. The HHS Grants Policy Statement (GPS),
which provides general terms and conditions and HHS policies for grantees and others interested
in the administration of HHS grants, specifies that foreign grantees must comply with the
requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign organization (GPS II-
113). Thus, the rules in 45 CFR part 92 apply to a foreign government.

This cooperative agreement was subject to the grant administration rules in 45 CFR part 92 and
the terms and conditions detailed in the notice of award (NOA). Furthermore, CDC incorporated
by reference the FOA and the application that CDC received from the Ministry dated June 8,
2009, as a part of this award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Ministry managed PEPFAR funds and met program
goals in accordance with the award requirements.

Scope

Our audit covered the budget period from September 30, 2009, through September 29, 2010.
This budget period was the third year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Ministry $15,000,000 and a carryover amount of
$4,211,597 from budget year 2.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at the Ministry’s offices in Hanoi, Vietnam, from February through March 2012.



                                                 2
Methodology

To accomplish our objective, we:

      •    reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
           the Ministry’s policies and procedures;

      •    interviewed and conducted meetings with Ministry officials to determine their processes
           and procedures related to financial accounting and reporting and accomplishments;

      •    reconciled to its accounting records the Ministry’s financial status report (FSR) 4 for the
           budget period under review;

      •    selected and reviewed a judgmental sample of 47 financial transactions with expenditures
           totaling $434,311 from the grant award of $15,000,000, and included expenditures
           such as:

               o bid proposal items;

               o transactions in an account that were an even amount;

               o transactions above/below the average transaction amount in an expenditure
                 category;

               o consulting and Government fees; and

               o value-added taxes (VAT); 5

      •    identified from the sampled transaction, the amount of VAT that the Ministry paid with
           PEPFAR funds;

      •    compared the accomplishments described in the Ministry’s annual progress report to the
           cooperative agreement’s goals and objectives; and

      •    selected a judgmental sample of 30 accomplishments described in the Ministry’s annual
           progress report and reviewed supporting documentation to determine whether the
           Ministry met program goals and objectives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

4
  Pursuant to 45 CFR § 92.41(b)(4), FSRs are due to the CDC Grants Management Office 90 days after the end of
the budget period. FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.
5
    A value-added tax is a form of consumption tax.


                                                       3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, the Ministry did not return $17,777
in interest income to CDC through the Payment Management System (PMS). In addition,
$29,931 of the $434,311 in financial transactions that we reviewed was used to pay potentially
unallowable VAT on purchases.

Also, the Ministry did not:

   •   ensure that all of the provinces obtained the required tax ID to receive a VAT refund or

   •   record adjustments to the general ledger account in a timely manner.

Our program management review showed that all 30 of the accomplishments sampled from the
annual progress report related to the goals and objectives of the cooperative agreement.
However, 5 of the 30 accomplishments were not accurately supported by documentation.
Additionally, the Ministry did not submit its semiannual and annual progress reports to CDC on
time, in accordance with Federal regulations.

The Ministry’s policies and procedures did not ensure that it:

   •   provided guidelines for returning interest income to CDC through the PMS,

   •   reconciled progress reports submitted to CDC with supporting documentation, and

   •   submitted its progress reports timely.

FINANCIAL MANAGEMENT

Program Interest Income Not Returned

Pursuant to the Financial management regime of Life-GAP, 3rd round, 2007-2012, any interest
earned that is more than $250 per year must be returned to CDC via the electronic PMS.

Interest income totaling $17,777 from 25 provinces was not returned to CDC through the PMS.
The Ministry stated that the provinces kept the interest income because they did not have any
guidelines on how to return money through the PMS.

Expenditures for Value-Added Tax

Pursuant to the HHS GPS (section II-114), certain costs, including VAT, are unallowable under
foreign grants and domestic grants with foreign components. Also, bilateral agreements with


                                                4
foreign governments may stipulate an exemption from paying the VAT for those contractors and
grantees that are funded by the United States and providing foreign aid. 6

During the audit period, the Ministry used $29,931 of PEPFAR funds to pay the VAT, a
potentially unallowable cost for this grant. However, the Ministry recorded total expenditures in
the general ledger without separating out the VAT expense; thus, we were unable to determine
the total amount of VAT expenditures. In addition, the Ministry stated that 11 of the 28
provinces did not have a tax ID, which is required to receive a VAT refund from the Vietnamese
Government.

Timely Recording of Financial Transactions

Pursuant to 45 CFR § 92.20(b)(1), recipients’ financial management systems must provide for
accurate, current, and complete disclosure of the financial results of financially assisted activities
in accordance with the reporting requirements set forth in the grant or subgrant.

We found that the Ministry’s financial management system did not always provide for accurate,
current, and complete reporting of grant-related financial data. Specifically, we found that the
Ministry recorded disbursements to subgrantees but did not record adjustments to the general
ledger account regularly. The Ministry did not record expenditures from subgrantees into the
general ledger until after expenditures had been verified by the Ministry. For example, Hanoi
Province did not close its accounting books until March 3, 2011, 5 months after the end of the
fiscal year. Additionally, Hanoi Province did not record expenditures until September 29, 2011,
almost 7 months after it closed its accounting books.

PROGRAM MANAGEMENT

Progress Report Testing

Pursuant to 45 CFR § 92.40(b)(2), progress reports should contain a comparison of actual
accomplishments to the objectives established for the period. Also, progress reports should
contain the reasons that any established objectives were not met and additional pertinent
information, including, when appropriate, analysis and explanation of cost overruns or high unit
costs.

All 30 of the accomplishments that we sampled from the annual progress report related to the
goals and objectives of the cooperative agreement. However, the Ministry did not provide
accurate documentation to support five of the accomplishments. The supporting documentation
for the number of attendees reported for training differed from the supporting documentation
showing actual attendance. Specifically, the Ministry reported that there were:




6
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommended that the Ministry work with CDC to resolve the issue.




                                                       5
    •    38 attendees at the “pilot training on testing and discovering TB for HIV-infected patients
         for 3 polyclinic hospitals” (supporting documentation showed 45),

    •    29 attendees at the “training on enhancing testing capacity” (supporting documentation
         showed 28),

    •    47 attendees at the “training on controlling TB transmission” (supporting documentation
         showed 48),

    •    143 attendees at the “training on HIV/AIDS and TB/HIV diagnosis and treatment for
         doctors of National Lung Hospital” (supporting documentation showed 121), and

    •    135 attendees at the “training on enhancing comprehensive quality
         Management” (supporting documentation showed 134).

Progress Report Submission

Pursuant to 45 CFR § 92.40(b)(1), recipients are required to submit annual progress reports,
unless the awarding agency requires quarterly or semiannual reports. Annual reports are due 90
days after the end of the grant year. Quarterly and semiannual reports are due 30 days after the
reporting period. Final progress reports are due 90 days after the expiration or termination of the
award. The NOA provides the specific due dates for progress reports. 7

The Ministry did not meet the 90-day Federal requirement for submitting an annual progress
report because it submitted its report to CDC more than a year late. The Ministry’s grant year
ended September 29, 2010. Therefore, the annual progress report was due on December 29,
2010. However, the Ministry did not submit the progress report to CDC until January 11, 2012,
and did not seek an extension or waiver. Without progress reports, CDC could not determine
whether the recipient met program goals in accordance with award requirements.

In addition, the Ministry did not meet the 30-day Federal requirement for submitting a
semiannual progress report because it submitted the report to CDC after the deadline of April 30,
2010, and did not seek an extension or waiver. The Ministry submitted an interim progress
report to CDC on May 28, 2010, and the semiannual progress report in early June 2010.

INADEQUATE POLICIES AND PROCEDURES

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements because its policies and procedures did not ensure that it:

    •    provided guidelines for returning interest income to CDC through the PMS,




7
 The grant rules allow for extensions of progress report due dates and waivers in some instances, at the agency’s
discretion (45 CFR § 92.40(b)(1)).


                                                         6
   •   reconciled progress reports to supporting documentation for accurate reporting to CDC,
       and

   •   submitted its progress reports timely.

RECOMMENDATIONS

We recommend that the Ministry:

   •   return $17,777 in interest income to CDC;

   •   work with CDC to resolve whether the $29,931 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   ensure that all provinces receive a tax ID and apply for a VAT refund;

   •   record financial transactions timely; and

   •   strengthen internal controls to ensure that:

       o progress reports are reconciled to supporting documentation and the data reported to
         CDC is accurate and

       o all progress reports are submitted timely.

MINISTRY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Ministry concurred with our recommendations on
strengthening internal controls over progress reports and generally agreed with our
recommendation to return the $17,777 in interest income. The Ministry partially agreed with our
recommendation to work with CDC to resolve whether the $29,931 of VAT was an allowable
expenditure under the cooperative agreement; it neither agreed nor disagreed with our
recommendation to record financial transactions in a timely manner. Additionally, the Ministry
described corrective actions that it had taken or planned to take.
The Ministry’s comments are included as the Appendix; however, we did not include the
additional documentation that the Ministry provided because it was too voluminous.

Program Interest Income Not Returned

Ministry Comments

The Ministry partially agreed with our recommendation to return $17,777 in interest income.
The Ministry recognized the need to return interest and acknowledged that it erred by failing to
attempt to return the accrued interest until September 2012. However, the Ministry stated that
Government of Vietnam (GVN) regulations set strict limitations on the overseas transfer of funds
held in Vietnamese bank accounts. The Ministry said that, prior to the release of interest, GVN


                                                   7
regulations require burdensome documentation to be submitted, including audit reports for each
of the five budget years of the cooperative agreements (2007 to 2012) between CDC and the
Ministry. The Ministry said that it has completed audits for 3 of the 5 years and has a contract
for the final 2 years.

Office of Inspector General Response

We recognize that the guidelines imposed by VGN will cause a delay in the return of these
funds. However, we maintain that the finding and recommendation are valid and that the
Ministry should return the interest to CDC upon completion of the required audits.

Expenditures for Value-Added Tax

Ministry Comments

The Ministry partially agreed with our recommendation to work with CDC to resolve whether
the $29,931 of VAT was an allowable expenditure under the cooperative agreement. The
Ministry explained that prior to October 28, 2010, the GVN tax authority provided refunds only
for limited items, namely HIV test kits and medication. The Ministry further explained that
while VAT refunds would be provided for all goods and services after February 2011, the
Ministry was unable to apply the changes retroactively. The Ministry stated that since the
change in law, it has worked to refund VAT on all eligible goods and services.

Office of Inspector General Response

We maintain that the findings and recommendations are valid and in accordance with HHS GPS
(section II-114). We continue to recommend that the Ministry work with CDC to resolve
whether the $29,931 of VAT was an allowable expenditure under the cooperative agreement.

Timely Recording of Financial Transactions

Ministry Comments

The Ministry did not agree or disagree with our recommendation to record financial transactions
in a timely manner. The Ministry stated that GVN financial regulations require it to record funds
transferred to subprojects as “advances” in the central office accounting records. The Ministry
further stated that these regulations did not allow the Ministry to record financial transactions
made at the subproject level in the central office accounting record based only on the annual
financial reports of the subproject; rather, the law required central office staff to perform an on-
site verification of the transactions. However, the Ministry stated that it will commit to verifying
and recording financial transactions made by subprojects within 6 months of the end of each
fiscal year.




                                                 8
Office of Inspector General Response

We recognize that the GVN financial regulation requiring the central office to perform an audit
prior to recording financial transactions is an effective control measure; however, we do not
consider 12 months after the close of the fiscal year to be in a timely manner. We believe that
the corrective action stated by the Ministry, i.e., recording financial transactions made by
subprojects within 6 months of the end of the fiscal year, more accurately reflects the
requirements of 45 CFR § 92.20(b)(1), which requires recipients’ financial management systems
to provide for accurate, current, and complete disclosure of the financial results of financially
assisted activities.




                                                9
APPENDIX
                                                                                                                       Page 1 of 4
                         APPENDIX: MINISTRY COMMENTS



               Ol/ AN   ov·PHONC vA      C HA M SOC IIIV/AIOS T~ l V I ~T NAM        C<)NC IIOA XA H<)I C H U NCHiA VI~T NAM
                   PROJECT ON I IlVlA lDS I'RFYI'N I JON AN D CARE IN V IETNAM               flOc lap- Tu·do- Hanh ph tic

                                                                                               Socialist Republic of Vietnam
LIFE-GAP                                                                                   Independence - Freedom- Happiness


                    ...!. J..b/CV-DALIFE
                Sb: .                                                                    H a N¢i, ngay   8   rhang   ~ niim    2013


       Wednesday, May 08, 2013

       Patricia Wheeler
       Regional Inspector General
       Office of Audit Services, Regio n VI 

       1100 Commerce Street, Room 632 

       Dallas, TX 75242


       Reference: Responses to the 0/C audil reporl o.fVielnam Administration .for HIVIAJDS Control
       Number A-06-1 J-0005Jor cooperalive agreement number 5U2CPS000747

       Dear Ms. Wheeler,
       VAAC received the U.S . Department of Health and Human Services (HHS) Office of Inspector
       General (OIG) draft report number A-06-11 -00057 th ro ugh the CDC Vietnam Office on April
       02, 2013. It is unfortunate that the report reached us several weeks after the official release date
       of February 26, 2013 , as the official hard copy must have been lost in the postal mail system.
       We would like to thank you very much for your review as well as the findings and
       recommendations you have provided. The HHS OTG visit in 2011 was a val uable opportunity for
       V AAC to showcase the successes of our program and the robust systems we utilize for managing
       USG funds .
       We have carefully reviewed the draft report, discussed the findings and recommendations with
       CDC Vietnam, and have prepared the fo llowing response:
       First of all, we would like to describe what we have found to be inherent confl icts in the laws,
       regulations and requirements of the U.S. Government vis a vis the Government of Vietnam, both
       of which govern the management of the subject VA.AC Cooperative Agreement.

           • 	 Conflict in law and regulations related to value- added tax: Prior to early 20 ll , the
               Government of Vietnam tax authorities placed narrow restrictions on which items were
               eligible for VAT refund . Due to these restrictions, VAAC was only eligible to receive VAT
               refund for HlV test kits and medicati on. The restrictions remained in place until GVN
               issued legal decree number l 06/20 I 0/ND-CP on October 28, 20 I 0 and subsequent circular
               number 28/20 11/TT-BTC on February 28, 20 I I. See attached for both documents.

           • 	 Conflict in r egulations and requirements related to r eturn of interest payments: GVN
               decree No. 160-2006/ND-CP on December 28, 2006 sets very strict limitations which
               govern when funds held in Vietnamese bank accounts may be transferred overseas,
               contributing to onerous documentation requi rements by the local branch ofCitiban.k, which
               holds the project's bank account, in order to release the funds .

       Further responses to specific report findings are included in the attached annex.


                        7'" floor HElD building, Lane 6A T hanh cong. -  Ba Dinh Dist. - Ha Noi city - V ietnam 

                                            Tel: (84-4) 3772 50 66; Fax: (84-4) 3772 50 65 

                                                     Email: lifegap@lifegap.org.vn 

                                                                                                       Page 2 of 4




In addition to our specific responses to OIG findings, VAAC would like to respond to the report
title: "The Vietnam Administration for HIV/AIDS Control Did Not Always Manage the
President's Emergency Plan for AIDS Relief Funds or Meet Program Goals in Accordance with
Award Requirements." It has been our experience working with international auditing firms, that
common practice is to title audit reports to reflect the nature and/or scope ofthe audit (e.g. "The
audit report for the period of fiscal year 04").
We believe the current report title may mislead readers, particularly decision makers within of
the U.S. Government and/or the Government of Vietnam to draw inaccurate conclusions about
the overall quality of the VAAC cooperative agreement project activities and management of
funds. We would like to request that the final report title is modified to reflect that, on the whole,
VAAC managed USG funds in accordance with program requirements and met program goals.


We thank you for your support and look forward to the final report.




               y'h floor HElD building, Lane 6A Thanh cong. - Ba Dinh Dist. - Ha Noi city- Vietnam 

                                   Tel: (84-4) 3772 50 66; Fax: (84-4) 3772 50 65 

                                            Email: lifegap@lifegap.org.vn 

                                                                                                                                             Page 3 of4




Annex. Detailed Responses to OIG Findings and Description ofCorrective Actions

No   Finding              Response                                                                        Correct ive Actions Taken to Date
                                                                                                          or Planned
I    Re turn $1 7,777 in VAAC recognizes the need to return accrued interest on cooperative               With guidance from CDC Vietnam,
     interest income to agreement funds to the U.S. govern ment and acknowledges that V AAC erred         V AAC has worked closely with
     CDC:                                                                                                 Citibank to attempt to transfer all
                         by failing to attempt to return interest accrued until Sep tember 2012; see
                                                                                                          recorded interest for the total project
                         attached Jetter to Citibank.
                                                                                                          period back to CD C through the PMS
                          But V AAC requests re-considerat ion ofthis report finding based on the above   system . At present. Citibank will not
                          described conflict in U.S Government vis a vis Government of Vietnam            release the interest for Years 4 and 5
                          regulations.                                                                    without final audit reports for these
                          GVN decree No. 160-2006/ND-CP on December 28, 2006sets very strict              years. V AAC is attempti ng to further
                          limitations on when funds held in Vietnamese bank accounts may be               negotiate with Ci tibank to overcome
                          transferred overseas. Therefore, in September 2012 when V AAC requested         this obstacle.
                          Citibank to release and return interest funds from the project bank account,
                          Citibank responded with a request for several documents, in order to ensure  We are hopeful that the release of this
                                                                                                       final HHS OIG audit report will be
                          they complied with the law/ decree (see attached).
                                                                                                       sufficient for Citibank to release the
                       The requested documents included audit reports for each of the five budget      interest funds. In addition, we
                       years of the CDC-VAAC cooperative agreement (2007-20 12). However, to           understand that the HHS Office of
                       date, independent aud its have been conducted only fo r years I, 2 and 3.       the General Counsel has recently
                       Beginning with budget year 4, CDC was no longer able to procure independent become engaged to he lp resolve the
                       audit services for partners as per guidance from CDC headquarters               situation with Citibank.
                       Procurement and Grant Office, therefore V AAC had to begin procuri11g their
                       own audi ts . Due to this change in process as well as lengthy GVN procedures   In the future , we hope to reach an
                       to for competitive procurement, VAAC has just recently (April 2013) signed a agreement w ith Citi bank that allows
                       contract for audits of budget years 4 and 5.                                    VAAC to return accrued interest to
                                                                                                       PMS directly following the end of
                                                                                                       fisca l year.
2     Work with CDC to   0   On June 21 , 2004, V AAC requested refund ofall VAT charged on goods
      resolve whether        and services procured through the cooperative agreement from the GVN Since the change in GVN Jaw,
      the $29,931 of         tax autho rit ies. The GVN tax authorities responded that they would only effective Februar y 28 , 20II , VAAC
      VAT wAs an             provide refunds for li mited items. namely HIV test kits and medication.  has worked to ensure refund of VAT
      allowable              Please refer to attached o fficial response from the GVN Hanoi Tax        on all e ligible goods and services.
      expenditure;           deoartment issued on August 24, 2004 VAAC also provided these
                                                                                                                                                 Page 4 of4




    Ensure that all            invoices to the OIG team during their visit.                                     In addition, V AAC has assisted
    provinces receive a    0   The GVN restrictions on items eligible for VAT refund remained in                project sub-awardees (provinces and
    tax ID and apply           effect until legal decree number 106/2010/ND-CP was issued on October            national institutes) to obtain a GVN
    for a VAT refund           28, 2010, (see attached) which made VAT refund allowable for all future          tax ID for the purposes o f VAT
                               purchases of goods and services. Furthermore, VAAC was only able to              refund . As of April2013 , all sub-
                               apply the changes outlined in this decree when the official guiding              awardees have a registered Tax lD
                               circular (Number 28/20 l lrrT-BTC; see attached) was issued on Feb 28,           for at the local provincial tax
                               2011.                                                                            department. ln addition , all sub­
                           0   As the new GVN regulations law are not retroactive, VAAC has been                awardees have requested VAT refund
                               unable to obtain VAT refunds fo r most goods and services procured prior         and recorded refunds on a monthly
                               to March 2011, including the audited period ofSeptember 30, 2009­                basis. Please refer to the VAT
                               September29, 2010.                                                               reports attached.

3   Record financial      This report finding refers to delays in recording financial transactions made by
    transactions in a     sub-awardees (i.e. sub-projects) int o the accounting book maintained by the
    timely manner         central project office.                                                               VAAC commits to verify and record
                                                                                                                financial transactions made by sub­
                          As per GVN financial regulations, funds transferred to sub-projects must be           projects within 6 months from the
                          initially recorded in the central office accounting book as "advances".               end of each fisca l year.
                          Therefore, it is not allowable within GVN law for V AAC to record actual
                          disbursements made at the sub-project level in the central office account book
                          on the basis ofannual financial reports from the sub-projects alone. Rathe r,
                          central office staff must first perform on-site verification. This is similar to an
                          annual audit of each sub-project by central office staff.

                          Due to the heavy work load ofthe central office financial management staff,
                          there were some delays in perforrnjng the verification and subsequent
                          recording of sub-project financial transactions into the central office
                          accounting book.
4                         VAAC concurs with t he finding and will strengthen internal controls to ensure        VAAC has clar ified staff roles and
    Strengthen internal
                          the accuracy and timely submission of progress reports.                               responsibilities for developing and
    contro ls fo r
                                                                                                                submitting progress reports. The
    progress reports
                                                                                                                Strategic Informat ion team now holds
                                                                                                                primary responsibility, wi th support
                                                                                                                from the Platm ing and Finance team.
